<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2020

                              ----------                              


                         WEDNESDAY, MAY 1, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
                                                    

    The subcommittee met at 2:30 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Jerry Moran (Chairman) presiding.
    Present: Senators Moran, Shelby, Boozman, Shaheen, Manchin, 
and Van Hollen.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                OPENING STATEMENT OF SENATOR JERRY MORAN

    Senator Moran. Good afternoon, everyone. The Subcommittee 
on Commerce, Justice, Science, and Related Agencies will come 
to order.
    The complication of the afternoon, at least the one we know 
of at the moment, is that there are four votes scheduled for 3 
o'clock. This voting thing is becoming much more common and 
makes it more difficult for us to do hearings and other 
things--and of our work.
    Senator Shaheen and I have agreed to forego our opening 
statements, which I assume will meet with approval.
    We do want to hear from the Administrator, and so I will 
recognize the Administrator for his testimony. We will figure 
this out as we go throughout the afternoon.
STATEMENT OF HON. JAMES F. BRIDENSTINE, ADMINISTRATOR, 
            NATIONAL AERONAUTICS AND SPACE 
            ADMINISTRATION
    Mr. Bridenstine. Yes, sir, Mr. Chairman, and I appreciate 
that.
    We are here to talk about the fiscal year 2020 budget 
request for NASA. This is another very strong budget 
demonstrating this administration's commitment to Space 
Exploration, not just Space Exploration, but also Aeronautics. 
A lot of people sometimes forget that the first ``A'' in NASA 
is ``Aeronautics,'' and I know, Chairman Moran, you know that 
all too well, being from Kansas.
    This is a really strong budget request. There are some 
significant changes that are going to come, and I know we have 
talked about that already.
    The budget request that is before the Senate right now 
shows that we intend to land on the Moon in 2028. Since the 
budget request was put forward, the administration has made 
another determination that instead of landing on the Moon in 
2028 that we should have the next man and the first woman on 
the Moon in 5 years, if you can imagine that.
    I will tell you as an Agency, we are very capable of 
achieving that end state. In fact, technologically, everything 
we need to accomplish that is there, and in fact, the 2028 
landing on the Moon included a number of programs that we were 
considering funding in 2025, 2026, 2027, and 2028. Really, in 
order to move it up to 2024, the only things that we need to do 
are take those elements that were going to be funded in those 
other years and move them forward.
    Think of this as, in essence, a surge of funding for the 
purpose of getting to the Moon within the next 5 years, and 
this Agency is perfectly capable of achieving it 
technologically. What I am here to do is share with you the 
direction that we are heading now, but I will also share with 
you that we are not in a position right now to say what that 
budget number is or necessarily where the administration is 
interested in that money coming from.
    NASA has done some preliminary work. We are continuing to 
work with our partners over at OMB and our partners over at the 
National Space Council to come with a unified administration 
position that we can present to Congress for further review.
    That is where we are in this effort, but I think we are in 
a good place to go back to the Moon by 2024. This time, of 
course, under the President's Space Policy Directive 1 when we 
go to the Moon, we are actually going to stay. The word is 
``sustainable.'' He wants a sustainable return to the Moon, and 
so that is our intent.
    We want to go to the Moon with commercial partners, with 
international partners. We want to go sustainably to the Moon, 
and ultimately, we want to utilize the resources of the Moon. 
Well, what are those resources? Water ice, hundreds of millions 
of tons of water ice on the South Pole of the Moon. Water ice 
represents water to drink. It also represents air to breathe. 
It is, in fact, life support available on the Moon and hundreds 
of millions of tons on the South Pole.
    We also know that water ice, hydrogen and oxygen, 
represents rocket fuel. It is the same rocket fuel that powered 
the Space Shuttles. It is the same rocket fuel when put into 
cryogenic liquid form, hydrogen and oxygen. It is the same 
rocket fuel that will power the Space Launch System, which is a 
critically important rocket for achieving the end state of the 
next man and the first woman on the South Pole of the Moon in 
2024, which is the direction of this administration.
    I will not continue. I know that there are questions. I 
just want to say it is an honor to be here. I look forward to 
your questions and look forward to further discussions about 
the 2024 agenda.
    [The statement follows:]
              Prepared Statement of Hon. James Bridenstine
                                overview
    Mr. Chairman and Members of the subcommittee, I am pleased to have 
this opportunity to discuss NASA's fiscal year 2020 budget request of 
$21 billion. This budget represents a significant step in pursuit of 
the ambitious, long-term goals set for the Agency in legislation and in 
Space Policy Directive-1.
    NASA is going forward to the Moon. On March 26, 2019, the Vice 
President announced at a meeting of the National Space Council in 
Huntsville, Alabama, that, at the direction of the President of the 
United States, it is the stated policy of this administration and the 
United States of America to return American astronauts to the Moon 
within 5 years and that, when the first American astronauts return to 
the lunar surface, they will take their first steps on the Moon's South 
Pole. NASA is laying out a plan to accomplish this charge and will 
submit a fiscal year 2020 budget amendment in the near future for 
necessary expenses for continued activities in support of establishment 
of a United States strategic presence on the Moon by 2024. Our goal is 
to leverage and build upon our existing work and plans to achieve these 
new goals.
    We are building a sustainable, open architecture that returns 
humanity to our nearest neighbor as the next step in our long-term 
drive to send humans to the Moon and on to Mars. We are moving fast; we 
are incentivizing speed, and we are going to start taking ``shots on 
goal'' almost immediately. We are completing development of Orion, the 
spacecraft that will carry humans to lunar orbit, and the Space Launch 
System (SLS), the rocket that will launch Orion. We are pressing 
forward toward an uncrewed test flight of Orion around the Moon and we 
are working to launch the Power Propulsion Element (PPE) in 2022, the 
first element of the Lunar Gateway, a spacecraft that will orbit the 
Moon and support future landings. Once habitation capability is added, 
the Gateway will serve as a reusable command module, supporting human 
missions to the surface of the Moon and giving us access to the entire 
lunar surface. Working with commercial partners and international 
partners, we seek to land humans on the surface of the Moon. We look 
forward to receiving industry proposals this July and moving forward on 
an ambitious schedule.
    We are building for the long term, and this time are going to the 
Moon to stay. A sustainable exploration plan requires that we build 
within realistically available resources. We are designing an open, 
durable, reusable architecture that will support exploration for 
decades to come. Sustainability requires reusable systems and an 
openness to partnerships from across the commercial sector and around 
the world.
    We are actively seeking partner contributions and participation. 
NASA is working to identify partnership opportunities that widen the 
pool of resources, enhance sustainability, and advance our most 
important exploration objectives.
    Sustainability requires that we remain focused on the next goal 
beyond the Moon. Systems we develop for lunar exploration will be 
designed to contribute to a human exploration mission to Mars where 
feasible. Beyond developing, testing, and demonstrating the technology 
we need for the journey, we need to understand the destination. Humans 
have, in fact, been exploring Mars for decades. We have moved from 
landers to small solar-powered rovers, and on to large nuclear-powered 
rovers. At the same time, we have invested in critical infrastructure 
in orbit around the planet. With the fiscal year 2020 request, NASA 
will go beyond current capabilities to begin developing a Mars Sample 
Return mission, a high priority of the scientific community as well as 
an important precursor to human exploration.
    NASA has proposed establishment of a new Moon to Mars Mission 
Directorate, which will manage systems development and technology 
investments for programs critical to the Agency's Exploration Campaign 
in an integrated manner, including all key lunar and cislunar 
activities as well as all technology development and demonstration 
activities. The Exploration Campaign relies on seamless collaboration 
across the Agency, including human exploration and operations in low-
Earth orbit (LEO) and beyond, technology development, and elements of 
science, as well as the rapidly advancing capabilities of our 
commercial partners. It draws upon decades of experience and data from 
our continuing efforts in LEO. NASA has played a pivotal role in 
enabling the ongoing and rapid expansion of commercial activity in LEO. 
Our commercial partners are set to make history--sending humans into 
space on commercially-developed, -owned, and -operated systems this 
year. This has been a long process, beginning with regular commercial 
cargo deliveries to the International Space Station (ISS); it will soon 
bring human spaceflight launches back to American soil. NASA is working 
to extend this success with commercial partners to the Moon and beyond.
    The fiscal year 2020 budget request supports our continuing efforts 
to improve the performance and safety of aircraft, crewed and uncrewed, 
here on Earth. NASA's Aeronautics research is returning to the X-plane 
business; our Low Boom Flight Demonstration Project (LBFD) is working 
toward a first flight of the X-59 QueSST supersonic flight demonstrator 
in fiscal year 2022. We will push the sound barrier once again, this 
time with the goal of making practical commercial supersonic travel a 
reality, while again helping to foster economic activity.
    Much of NASA's current infrastructure was built to support the 
Apollo Program. Sustainability also includes the ability of our 
infrastructure, capabilities, and facilities to effectively and 
efficiently support our missions, while including sufficient 
flexibility to meet future needs as we continue to explore. This budget 
includes significant new investments in NASA's mission support 
activities, to ensure that exploration in space is not limited by our 
capabilities on the ground.
    NASA also remains committed to exploring and discovering worlds 
that humans may still be many decades, or even centuries, from 
visiting. NASA robotic missions have visited all the planets of the 
solar system, and the Parker Solar Probe is preparing to touch the 
Sun's atmosphere. While the long-lived Opportunity Rover has finally 
ceased functioning, the even longer-lived Voyager spacecraft has left 
the solar system. The search for life beyond Earth takes its next step 
with our planned mission to Europa. The unparalleled James Webb Space 
Telescope will open a new chapter in humanity's ongoing quest to 
explore and understand our universe.
    NASA's focus on exploration also extends to the one planet known to 
support life. Exploring the Earth as a system from space, NASA is our 
leading source of information on the how the planet works, how the 
climate is changing, and what the future holds. No planet is more 
important to explore than our own. With a fleet of spacecraft operating 
in orbit NASA will continue its world-leading role exploring the home 
planet.
    With the James Webb Space Telescope poised to look out into the 
cosmos and back to the time when the first stars were forming, humans 
landing on the Moon, and constellations of spacecraft exploring the 
solar system, NASA's fiscal year 2020 request supports what is truly a 
golden age of exploration.
                    human exploration and operations
    The fiscal year 2020 budget request supports bold new steps in 
NASA's Exploration Campaign. The United States will lead the return of 
humans to the Moon for long-term exploration and utilization, followed 
by human missions to Mars and other destinations. The request provides 
the fiscal year 2020 resources NASA needs to develop the SLS rocket and 
Orion crew vehicle, as well as the other critical technologies and 
research needed to support a robust exploration program. The budget 
supports NASA's plan to use a commercial rocket to deliver to cislunar 
orbit the Power and Propulsion Element (PPE) as the foundation of a 
Lunar Gateway no earlier than 2022.
    The fiscal year 2020 request includes $5,021.7 million for Deep 
Space Exploration Systems, and $4,285.7 million for Low-Earth Orbit and 
Spaceflight Operations, including the ISS and Space Transportation--
both commercial crew system development and ongoing crew and cargo 
transportation services that resupply the ISS.
    NASA will continue its mission in LEO with the ISS to enable 
exploration, while continuing to perform research that benefits 
humanity, supporting National Laboratory research by private industry 
and other organizations, and working towards reducing operations and 
maintenance costs. NASA will create new opportunities for collaboration 
with industry on the ISS and develop public-private partnerships for 
exploration systems that will extend human presence into the solar 
system. NASA is working to transition our work in LEO, including our 
international partnerships, to be based on commercially-provided space 
station services that help enable deep space exploration and private 
sector expansion in LEO. To support this transition, the ISS will focus 
near-term activities on supporting commercial industry as well as 
meeting government requirements in LEO. In parallel, NASA is creating a 
focused effort aimed at long-term American operations in LEO 
independent of the ISS.
    Under the auspices of the ISS National Laboratory, managed by the 
Center for the Advancement of Science In Space (CASIS), NASA and CASIS 
continue to expand research on the ISS sponsored by pharmaceutical, 
technology, consumer product, and other industries, as well as by other 
government agencies, such as the National Institutes of Health and the 
National Science Foundation. Through the joint efforts of NASA and 
CASIS, the ISS National Lab has reached full capacity for allocated 
crew time and upmass and downmass.
    Space life and physical science research will continue to follow 
the guidance of the National Academies' decadal studies. NASA-sponsored 
researchers will be a major user of the ISS and an early user of new 
commercial platforms as they: enable exploration with research in fluid 
physics, combustion, microbiology, food production, and animal models; 
and produce knowledge for use on Earth in materials science, complex 
fluids, and fundamental cold atom physics. Space life and physical 
science research expertise will be shared with new Governmental, 
commercial, and academic researchers to accelerate their productive use 
of LEO for research and technology development and increase demand for 
LEO capability.
    NASA's Human Research Program (HRP) will continue to conduct 
cutting-edge research on the effects of spaceflight on the human body, 
including experiments that require the microgravity environment of the 
ISS. HRP will support the development of deep space exploration habitat 
concepts to ensure crew health and performance risks are adequately 
addressed.
    Maintaining the ISS requires service providers to sustain a regular 
supply line of both crew and cargo. Under the original Commercial 
Resupply Services (CRS) contracts, our two commercial cargo partners, 
Space Exploration Technologies (SpaceX) and Northrop Grumman, have 
provided cargo deliveries to the ISS. Using the launch vehicles 
developed in partnership with NASA, SpaceX has helped to bring some of 
the commercial satellite launch market back to the United States and 
has contributed to a reduction of launch costs. Northrop Grumman has 
begun to explore commercial markets by offering LEO missions for up to 
a year after their ISS cargo mission is completed. Under new CRS-2 
contracts, SpaceX, Northrop Grumman, and Sierra Nevada Corporation will 
deliver critical science, research, and technology demonstrations to 
the ISS over 5 years from 2020 through 2024. The addition of Sierra 
Nevada will add the unique capability to return cargo to various 
runways, enabling quicker return of cargo for ISS users.
    NASA and its commercial partners, Boeing and SpaceX, will soon make 
history as they prepare to launch humans to the ISS. Before the 
companies can begin regularly flying long-duration missions to the 
orbiting laboratory, they first need to demonstrate their systems' 
capabilities through a series of flight tests. SpaceX's uncrewed Demo-1 
launched on March 2, 2019, successfully docked to the ISS, re-entered 
Earth's atmosphere, and was recovered after splashing down in the 
Atlantic Ocean. Boeing is planning for an uncrewed launch in August 
2019. Through NASA's Commercial Crew Program, American astronauts will 
soon launch to orbit from American soil for the first time since the 
Space Shuttle retired in 2011. Further, for the first time in history, 
humans will travel to space on systems owned, built, tested, and 
operated by private companies. The recent flight of the Crew Dragon and 
upcoming flight of the CST-100 Starliner will demonstrate the enormous 
potential of commercial partnerships for the human exploration and 
development of space. The NASA and SpaceX teams are assessing the 
anomaly that occurred on April 20, during the Dragon Super Draco Static 
Fire Test at SpaceX Landing Zone 1 in Florida. Any necessary 
adjustments will be made and we will safely move forward with our 
Commercial Crew Program.
    Through the Commercial LEO Development program, NASA will continue 
to leverage its resources and capabilities to enable the development of 
a commercial market in LEO. The program's first solicitation activity, 
which will go out in the next few months, will support the development 
of new commercial LEO platforms and capabilities. These partnerships 
will further accelerate the transition of human spaceflight operations 
in low-Earth orbit to commercial partners for NASA and non-NASA needs.
    NASA is building a deep space launch and crew system--the Orion 
spacecraft, the heavy-lift SLS launch vehicle, and the supporting 
Exploration Ground Systems (EGS)--to support the Exploration Campaign. 
The SLS Block 1 cargo variant will be capable of delivering Orion to 
cislunar space in the early 2020s. While more powerful SLS 
configurations remain an important future capability, recent delays in 
SLS core stage manufacturing require that NASA concentrate in the near 
term on the successful completion of EM-1 and EM-2 rather than split 
attention between EM-1, EM-2, and developing an upgraded upper stage. 
As a result, the pending budget defers SLS Block 1B final development 
efforts. The Orion crew vehicle will carry up to four humans to the 
lunar vicinity for up to 21 days, and when combined with additional 
habitation can support longer-duration missions. The Orion will also be 
able to provide key initial life-support and abort capabilities to 
Gateway.
    The budget request supports a planned SLS/Orion mission, 
Exploration Mission-1 (EM-1) that would send an uncrewed Orion 
spacecraft around the Moon. This would be followed by the first crewed 
SLS/Orion mission, Exploration Mission-2 (EM-2) and an annual launch 
cadence thereafter. The EM-1 and EM-2 launch dates are under review 
pending completion of independent assessments of core stage production 
and the integrated mission schedule. In early March, the Human 
Exploration and Operations Mission Directorate (HEOMD) chartered an 
assessment to evaluate alternate approaches for hardware processing and 
facilities utilization for key components, with the goal of maintaining 
an early as possible EM-1 launch date. To date the following has been 
concluded:

  --The 45-day study identified production and operations opportunities 
        that help provide some schedule savings for EM-1 while 
        identifying minimal change to the risk posture.
  --An alternate assembly plan has been adopted to assemble the entire 
        Core Stage in parallel with the engine section, then mate the 
        engine section horizontally. Vertical final outfitting will 
        occur at Stennis Space Center. This alternate assembly approach 
        will result in reducing the time the vehicle will be at Michoud 
        Assembly Facility by approximately 3.5 months.
  --Orion will remove propellant and consumables not needed for the 
        mission; this reduction in Orion mass will provide up to 3 days 
        of additional launch window opportunities.
  --Even with the changes described above, it will not be possible to 
        meet the previously-planned EM-1 launch target of no earlier 
        than (NET) June 2020. NASA and its contractors are working to 
        address the programs' performance issues and prevent further 
        delays.

    Next, an independent schedule risk review led by the NASA Office of 
the Chief Financial Officer will evaluate the HEOMD assessment to 
include the integrated, detailed schedule and associated risk factors 
ahead of EM-1. NASA leadership will review the results of these 
assessments in late spring 2019 at an Agency Program Management 
Council, before revising the EM-1 and EM-2 launch planning dates. NASA 
remains focused on the major risk areas associated with first-time 
production and testing of the SLS core stage, integrated assembly and 
test of the Orion crew and service module, and integrated operations at 
the Kennedy Space Center. The fiscal year 2020 budget fully funds the 
Agency baseline commitment schedule for EM-2 and the Orion spacecraft 
and enables NASA to begin work on post-EM-2 missions. SLS, Orion, and 
EGS are critical capabilities for maintaining and extending U.S. human 
spaceflight leadership beyond LEO to the Moon, Mars, and beyond and 
NASA is working hard with the program's contractors to ensure the 
program's performance improves.
    As a key part of the Exploration Campaign, NASA will establish the 
Lunar Gateway, a small way station that will orbit the Moon and enable 
human and robotic missions to the lunar surface. The Lunar Gateway will 
support exploration on and around the Moon, and sustainable human lunar 
surface exploration missions by supporting reusable human lunar 
landers. It will be a temporary home for astronauts and will foster 
growing domestic and international economic opportunities for 
commercial logistics and refueling services, as well as providing 
robust communications with spacecraft in cislunar space and on the 
lunar surface.
    The PPE is the first element of the Lunar Gateway which will be 
launched on a commercial rocket in 2022 and placed in orbit around the 
Moon. The PPE will demonstrate advanced high-power solar-electric 
propulsion (SEP) bus systems that will support both future NASA and 
commercial applications. The PPE will supply power and propulsion for 
elements and systems on the Lunar Gateway as well as communication to 
and from Earth, other spacecraft, and missions to the lunar surface. 
The Lunar Gateway is intended to be capable of supporting human-class 
lander deployments and operations. Once the PPE and minimal habitation 
capabilities have been delivered to cislunar space, a crew of four--
launched on Orion--will be able to visit the Lunar Gateway on their way 
to the lunar surface.
    The Lunar Gateway will be launched on competitively procured 
commercial launch vehicles and assembled in orbit around the Moon where 
it will be used immediately as a staging point for missions to the 
lunar surface. It can evolve depending on mission needs, and will 
support human-class reusable landers, landing a crew of up to four 
astronauts on the lunar surface and ultimately developing sustaining 
lunar operations on the Moon. This budget integrates the NASA Docking 
System (NDS) into the modules of the Lunar Gateway, reducing 
development cost and allowing NASA, international and commercial 
partners to easily dock with Lunar Gateway to support lunar landers 
(including reusable human landers), the Lunar Gateway itself and 
science objectives. Further, the early development of commercial 
docking and delivery capabilities will be essential for developing a 
sustainable and scalable lunar program. Delivery of Lunar Gateway and 
lunar lander elements, including refueling of these elements, will 
create a reusable hub for sustainable lunar activity and feed forward 
to Mars. The Gateway and lunar surface campaign will benefit from 
components being provided by International partners. The Gateway will 
be functional for lunar surface support with the addition of a 
utilization module planned as the next element after the PPE element.
    NASA is supporting the development of commercial lunar exploration 
capabilities leading to a human lunar landing. NASA is focused on 
engaging U.S. industry partners using innovative approaches to combine 
lunar robotics, a cislunar presence, and lunar landing capabilities 
building up to a human-rated lander. NASA's lunar efforts will 
incorporate results from the following.

  --The Lunar Cargo Transportation and Landing by Soft Touchdown 
        (CATALYST) initiative, established in 2014, is encouraging the 
        development of U.S. private-sector robotic lunar landers 
        capable of successfully delivering payloads to the lunar 
        surface using U.S. commercial launch capabilities.
  --Through Commercial Lunar Payload Services (CLPS), NASA selected 
        nine U.S. companies to bid on delivery services to the lunar 
        surface. Lunar payloads from a variety of customers, including 
        NASA, will fly on contracted missions starting in 2020, 
        enabling critical technology demonstrations and scientific 
        observations.
  --The budget request supports commercial development of a large lunar 
        lander that will ultimately carry astronauts to the surface of 
        the Moon. NASA issued a solicitation on February 7, 2019 to 
        seek proposals from industry for human lander system studies, 
        risk reduction, development, and spaceflight demonstrations. 
        These Next Space Technologies for Exploration Partnerships 
        (NextSTEP) will enable rapid development and flight 
        demonstrations of human lunar landers by supporting critical 
        studies and risk reduction activities, maturing requirements, 
        tailoring applicable standards, and creating technology 
        maturation plans.
  --NASA and its industrial partners are also working on NextSTEP 
        habitation systems to develop concepts for cislunar habitats 
        and to conduct ground-based testing of prototype habitats to 
        evaluate human factors, validate subsystem integration, and 
        test standard interfaces. The knowledge gained from testing the 
        NextSTEP habitats will reduce risk in the design of the 
        Gateway.

    Missions to the Moon and cislunar space will also serve as a 
stepping-stone, a training ground, and a platform to strengthen 
commercial and international partnerships and prepare for future human 
missions to Mars and other destinations.
    The fiscal year 2020 budget request provides for critical 
infrastructure indispensable to the Nation's access to and use of 
space, including those provided under the Space Communications and 
Navigation (SCaN) Program, the Communication Services Program, the 
Launch Services Program, Rocket Propulsion Testing, and Human Space 
Flight Operations.
    Human missions to the Moon and Mars will require advanced space 
communications and navigation capabilities. SCaN's technology 
development effort invests in leading-edge communications technologies 
to enable, improve, and mature spacecraft communication and navigation 
technologies. NASA is conducting studies to identify future 
technologies under development that can be infused to support NASA 
exploration missions in the 2022-and-beyond timeframe. These studies 
include Requests for Information and funded Broad Area Announcements to 
leverage the creativity of industry partners through mechanisms such as 
public-private partnerships that will be central to NASA's future 
communications architecture. NASA is also initiating a Communications 
Services Program, based on our successful Launch Services Program, 
which will begin work towards matching future NASA missions with 
communications services furnished by commercial providers.
                         exploration technology
    NASA's fiscal year 2020 request includes $1,014.3 million for 
Exploration Technology to accelerate technology development to enable 
human and robotic exploration of the Moon and Mars and foster 
commercial expansion in LEO and beyond. Technology drives exploration 
with investments spanning the Technology Readiness Level (TRL) 
spectrum, advancing early-stage concepts and maturing key technologies 
and systems that enable demonstrations in relevant environments.
    Within Exploration Technology, NASA will accelerate development of 
lunar surface technologies through the Lunar Surface Innovation 
Initiative, driving new essential technologies required for humans to 
successfully operate on the lunar surface. Utilizing the 5-year 
horizon, NASA will transition key technologies through the ground 
demonstration phase toward flight demonstrations. The Lunar Surface 
Innovation Initiative will include the technology areas highlighted 
below.

  --NASA is developing the technologies to make use of resources 
        available on the Moon, on Mars, and on other planetary bodies 
        (in situ resources). This technology holds the potential to 
        produce consumables, including oxygen, water, and hydrogen on 
        the Moon, thereby reducing mission mass, cost, and risk of 
        human exploration.
  --In order to address power requirements for long-duration human 
        missions to the lunar surface, NASA is continuing work on its 
        Kilopower technology project to demonstrate a small, 
        lightweight fission power system. The Kilopower project will 
        transition into a demonstration mission in fiscal year 2020 
        that would permit long-duration crewed missions on the surface 
        of the Moon.

    The Lunar Surface Innovation Initiative will bring together the 
full range of stakeholders, including entrepreneurs, academia, small 
businesses, industry, and the NASA workforce to catalyze technology and 
systems development.
    Additionally, computer systems for spaceflight are exposed to a 
hostile radiation environment that can impact performance and 
reliability. NASA will address this challenge in fiscal year 2020 by 
testing a powerful, radiation-hardened computer processor that will 
enable advanced precision landing, hazard avoidance, and autonomous 
operations.
    NASA plans to launch two Exploration Technology demonstration 
missions in 2019: the Green Propellant Infusion Mission spacecraft, and 
the Deep Space Atomic Clock instrument will both be delivered to orbit 
as part of the U.S. Air Force Space Test Program-2 mission. The Green 
Propellant Infusion Mission demonstrates a propulsion system that could 
reduce spacecraft processing costs by replacing hydrazine propellant 
with a propellant that is less toxic and has approximately 40 percent 
higher performance by volume. The Deep Space Atomic Clock will 
demonstrate the potential of a 50-fold increase in clock accuracy for 
improved deep space navigation and improved gravity science 
measurements.
    NASA is working to an August 2020 launch readiness date for its 
Laser Communications Relay Demonstration project. The project will 
demonstrate optical communications technology in an operational 
setting, providing data rates up to 100 times faster than today's 
radio-frequency-based communication systems.
    In 2020, the Solar Electric Propulsion project will complete the 
Critical Design Review for the electric propulsion subsystem, and build 
qualification units to conduct qualification testing of the Solar 
Electric Propulsion engineering development units for the high-power 
electric propulsion string. The first demonstration of this system will 
be the 50-kilowatt-class PPE for NASA's Lunar Gateway spacecraft.
    Other technology development that Exploration Technology supports 
includes critical technology for the Mars 2020 mission to be delivered 
this year; inflatable aerodynamic decelerator technology which could 
enable high mass Entry, Descent, and Landing on Mars; and In-Space 
Robotic Manufacturing and Assembly, with the potential to revolutionize 
exploration. These and many more technology efforts are enabling NASA's 
most challenging missions.
                                science
    NASA's Science Mission Directorate leverages space-, air-, and 
ground-based assets to answer fundamental questions about the Earth, 
the solar system and the universe, and our place in the cosmos. Our 
scientists, engineers, and technologists work with a global community 
of researchers to provide the scientific discoveries that advance 
critical understanding and inform decisionmaking. Whether through 
disaster response, natural resource management, planetary defense, or 
space weather monitoring, NASA provides tangible benefits that help 
protect and improve life on Earth. At the same time, NASA is leading 
the quest to answer some of most pressing human questions, among them 
how Earth and the universe evolved, how life emerged, and whether we 
are alone in the universe.
    The fiscal year 2020 budget requests $6,303.7 million for NASA 
Science, including $2,622.1 million for Planetary Science, $844.8 
million for Astrophysics, $352.5 million for JWST, $704.5 million for 
Heliophysics, and $1,779.8 million for Earth Science. The budget 
enables NASA to continue advancing national science and exploration 
goals while maintaining its global leadership position through a 
balanced and integrated science program. This year's budget request 
reflects a concerted effort to seek and execute new partnerships that 
will allow the Agency to leverage the innovation, resources, and know-
how of the full breadth of the global science enterprise, including 
other U.S. and foreign agencies, as well as commercial, academic, and 
other non-Governmental partners.
    Science remains critical to the exploration goals of the Agency, 
contributing both capabilities and knowledge needed to advance human 
and robotic exploration of the Moon, Mars, and beyond. The Lunar 
Discovery and Exploration program advances an integrated strategy for 
exploration, not only through improved collaboration across the Agency 
but also by leveraging interagency, international, and commercial 
partnerships. In November 2018, NASA selected nine U.S. companies to 
bid on delivery services to the lunar surface through Commercial Lunar 
Payload Services (CLPS) contracts. Lunar payloads from a variety of 
customers, including NASA, will fly on contracted missions starting in 
2020, enabling critical technology demonstrations and scientific 
observations; most recently, NASA selected 10 proposals for the 
Development and Advancement of Lunar Instrumentation (DALI) program, 
which will support instruments that will fly on future lunar missions. 
NASA's Lunar Reconnaissance Orbiter (LRO), which marks its tenth 
anniversary in 2019, continues to help scientists characterize the 
lunar surface, providing insights into lunar resource analysis that 
could support future human exploration.
    NASA's Planetary Science Division develops and operates 
increasingly sophisticated missions to reveal new knowledge of our 
Solar System's content, origin, evolution, and the potential for life 
elsewhere. With spacecraft in place from the innermost planet to the 
very edge of the Sun's influence, this year's budget request 
reinvigorates robotic exploration of our Solar System, supporting the 
long-term scientific study of the Moon, Mars, and beyond.
    NASA's robust Mars Exploration Program continues to achieve great 
things. In November 2018, the Interior Exploration using Seismic 
Investigations, Geodesy and Heat Transport (InSight) lander reached the 
Martian surface, marking the Agency's eighth successful soft landing on 
the Red Planet. A robot geologist, InSight will yield new discoveries 
about the Martian interior, providing an unprecedented look at its core 
structure and heat flow. Cruising behind InSight were two experimental, 
briefcase-sized spacecraft named Mars Cube One (MarCO)--the first ever 
planetary CubeSats--which successfully relayed data back to Earth from 
the InSight lander during its descent to the Martian surface.
    The budget request also supports continued progress of the Mars 
2020 rover, which--after an intensive effort to identify the most 
promising landing site--will head to the Jezero Crater following a July 
2020 launch. A precursor to human missions to Mars, Mars 2020 will 
continue to search for evidence of life on the Red Planet and collect a 
cache of core samples.
    In 2020, NASA will commence studies and development of a Mars 
Sample Return mission--the highest priority strategic mission 
identified by the scientific community in the most recent planetary 
science decadal survey and endorsed in the 2018 midterm assessment--
that would allow for the return of the Mars 2020 rover samples. 
Leveraging commercial and international partnerships, such as with the 
European Space Agency, this mission may launch as early as 2026.
    Beyond Mars, NASA will continue development of the next Discovery 
missions, Lucy and Psyche, as well as the cutting-edge Europa Clipper 
strategic mission to fly by Jupiter's moon--a first step in exploring 
ocean worlds and their potential habitability. And just this year, NASA 
celebrated the first flyby of a Kuiper Belt object (MU69/Ultima Thule) 
with our New Horizons mission. The data collected from over four 
billion miles away from Earth will help answer basic questions about 
the surface properties, geology, and atmospheres of these primitive 
bodies.
    In December 2018, NASA's first asteroid sampling mission, the 
Origins, Spectral Interpretation, Resource Identification, Security-
Regolith Explorer (OSIRIS-REx), entered orbit around Bennu, the 
smallest object a spacecraft has ever orbited. In 2020, OSIRIS-REx will 
have completed its mapping of Bennu, informing selection of the most 
promising sample collection site. Its measurements of this potentially 
hazardous object (Bennu's orbit could bring it relatively close to 
Earth at the end of the next century), will not only shed light on the 
early history of our Solar System, but will also inform the design of 
future missions to mitigate possible asteroid impacts on Earth.
    Built as a cohesive, international program for Near-Earth Object 
(NEO) detection and mitigation technology development, NASA's Planetary 
Defense Program will continue to fund the NEO Observations project and 
development of a space-based infrared instrument for detecting NEOs 
with this year's budget request. Meanwhile, the Double Asteroid 
Redirection Test (DART) to demonstrate the kinetic impact technique for 
asteroid deflection will continue to make progress towards its planned 
2021 launch.
    NASA's Astrophysics Division seeks to understand the universe and 
our place in it, probing how it works and peering into the origin and 
evolution of galaxies and stars. Through a coordinated program of 
research, space-based missions, and technology development, it also 
explores the formation of planetary systems and seeks to understand how 
habitable environments develop, a key aspect of the search for life in 
the universe.
    In 2018, NASA bid farewell to the Kepler mission, after 9 years of 
searching for planets outside our Solar System. Kepler discovered 
almost 2,700 new exoplanets, bringing the total from all sources to 
over 3,900 known exoplanets. Kepler's legacy serves as the foundation 
for NASA's next planet-hunting mission, the Transiting Exoplanet Survey 
Satellite (TESS), launched in April 2018. TESS has already found 12 new 
exoplanets, including four new multi-planet systems. During its two-
year primary mission, TESS will observe nearly the whole sky, providing 
a rich catalog of worlds around nearby stars, including valuable 
targets for the James Webb Space Telescope to explore. The 2020 budget 
accommodates the funds needed to support the revised March 2021 launch 
date of the James Webb Space Telescope, the largest and most powerful 
space telescope to be developed to date. Webb will join NASA's family 
of observatories to examine the first stars and galaxies that formed, 
viewing the atmospheres of nearby planets outside our solar system and 
informing our understanding of the evolution of our own solar system.
    The budget request also supports operations for the airborne 
Stratospheric Observatory for Infrared Astronomy (SOFIA), a partnership 
with the German Aerospace Center; SOFIA will complete its 5-year prime 
mission in 2019. Flying into the stratosphere above 99 percent of 
Earth's infrared-blocking atmosphere, SOFIA allows astronomers to study 
the solar system and beyond in ways that are not possible with ground-
based telescopes, from almost anywhere in the world.
    In order to maintain a balanced science program that optimizes 
overall scientific return, the fiscal year 2020 budget request again 
proposes termination of the Wide Field Infrared Survey Telescope 
(WFIRST), given its significant cost and higher priorities within NASA, 
including completing the delayed James Webb Space Telescope.
    The budget also enables NASA to fully support competed Astrophysics 
missions and research, and follow the decadal-survey-recommended 
cadence of new Astrophysics Explorers missions. By the end of fiscal 
year 2019, NASA plans to release Announcements of Opportunity for the 
next Astrophysics Small Explorer and Mission of Opportunity missions 
for an initial selection in 2020.
    NASA's Heliophysics Division studies the nature of the Sun, how it 
affects Earth and other objects in the solar system, and the very 
nature of space itself. Understanding the Sun and its interactions with 
the space environment, including near-Earth space, helps scientists 
identify the causes and impacts of space weather phenomena, which can 
threaten spacecraft and astronauts, and affect human technological 
infrastructure and activities, both on and around Earth, and beyond.
    The Heliophysics Division adopts a holistic approach to the study 
of the Sun and its connection to Earth and other planets--venturing to 
the very edge of the Sun's influence and beyond. In December 2018, 
Voyager 2 exited the heliosphere, the protective bubble of particles 
and magnetic fields created by the Sun, a milestone only achieved once 
before--by Voyager 1 in 2012. In over 40 years in space, Voyager 2 has 
traveled a staggering 18.5 billion miles and is NASA's longest-running 
mission.
    In 2018, several successful launches also expanded the Heliophysics 
System Observatory, including the January 2018 launch of the Global-
scale Observations of the Limb and Disk (GOLD) instrument, and the 
August 2018 launch of the Parker Solar Probe, which completed its first 
of 24 planned orbits around the Sun in January 2019. Together with 
GOLD, the Ionospheric Connection Explorer (ICON) instrument launching 
in 2019 will provide the most comprehensive observations of the 
ionosphere--a region of charged particles in Earth's upper atmosphere. 
In July 2018, NASA selected the Interstellar Mapping and Acceleration 
Probe (IMAP), identified as a priority in the most recent solar and 
space physics decadal survey, to launch in 2024 to study the boundary 
of the outer solar system where the solar wind ends. Also, in 2020, 
NASA will launch Solar Orbiter, a joint collaboration led by the 
European Space Agency, into orbit around the Sun in order to better 
understand the dynamics of the heliosphere.
    NASA continues to work with its agency partners to reduce gaps 
between space weather research and operations. The budget initiates the 
Heliophysics Space Weather Science and Applications project to further 
strengthen the feedback between fundamental research and operational 
forecasting needs by improving the transition of science results into 
operational products. The budget also provides for a potential new 
Small Explorer-class space weather mission. This will lay the 
groundwork for a future Space Weather Mission line to focus on 
resolving fundamental science problems required to improve space 
weather prediction, and serve as a pathfinder for observation 
technology for the National Oceanic and Atmospheric Administration's 
(NOAA's) operational space weather missions.
    NASA's Earth Science Division develops and operates space-based and 
airborne missions that obtain revolutionary observations of our planet. 
NASA Earth Science works with the scientific community to coordinate 
and integrate measurements to improve quantitative understanding of our 
planet and accurately model Earth's complex system of interacting 
processes. The program also teams with government and commercial 
partners in the U.S. and internationally to use the measurements and 
understanding to develop and demonstrate applications that will provide 
direct benefit to our Nation, and indeed all of humanity.
    In 2018, NASA launched two strategic missions recommended by the 
2007 Earth Science decadal survey: Gravity Recovery and Climate 
Experiment Follow-On (GRACE-FO); and Ice, Cloud and land Elevation 
Satellite-2 (ICESat-2). The twin satellites of GRACE-FO are continuing 
the original GRACE mission's 15-year legacy (2002-2017) of measuring 
the changing mass of ice sheets and glaciers and tracking Earth's water 
movement across the planet. ICESat-2, the follow-on to NASA's ICESat 
mission (2003-2009), is providing unprecedented data on the topography 
of ice, forests, and oceans. In November 2018, the Operation IceBridge 
2018 Antarctic Field Campaign concluded successfully after flying under 
ICESat-2 orbits to validate and verify the new satellite's 
measurements.
    In addition, NASA Earth Science is collaborating with the Human 
Exploration and Operations Mission Directorate to utilize the ISS for 
Earth observations. NASA Earth Science launched two low-cost, 
competitively selected missions to the ISS in 2018. The ECOsystem 
Spaceborne Thermal Radiometer Experiment on Space Station (ECOSTRESS) 
instrument is measuring agricultural water use, vegetation stress, and 
drought warning conditions. In December 2018, the similarly low-cost, 
competitively selected Global Ecosystem Dynamics Investigation (GEDI) 
vegetation canopy lidar instrument was launched to the ISS and is now 
embarked on its science mission to make 3D maps of the world's forests.
    Launching to the ISS in spring 2019, the Orbiting Carbon 
Observatory-3 (OCO-3) instrument will continue measurements of the 
complex dynamics of Earth's carbon cycle, increasing understanding of 
the regional sources and sinks of carbon dioxide. The fiscal year 2020 
budget request also funds continued progress of Landsat 9 for a launch 
as early as fiscal year 2021. As part of the Sustained Land Imaging 
program architecture, Landsat 9 will enable continuity of the critical, 
long-term land imaging data record begun in 1972 with NASA's joint 
agency partner, the U.S. Geological Survey. Consistent with the fiscal 
year 2019 budget request, the fiscal year 2020 request proposes 
termination of the Plankton Aerosol Cloud ocean Ecosystem (PACE), and 
Climate Absolute Radiance and Refractivity Observatory Pathfinder 
(CLARREO-PF) missions.
    NASA Earth Science continues to explore innovative partnerships and 
new approaches, including the acquisition of commercial data products 
from small satellite constellations. In September 2018, the Earth 
Science Division awarded contracts to three commercial data products 
providers. Through this pilot program, NASA-funded researchers will 
examine the scientific value of the data to help determine the utility 
of the private sector's constellation-based products for advancing 
NASA's science and applications development goals. The 2020 budget 
request continues support for the integration of NASA Earth Science 
efforts with non-Governmental partners through these and other 
activities, such as commercial hosting and new partnerships (such as 
the NASA-Conservation International collaboration announced in February 
2018).
    NASA Science leads the Nation on a journey of discovery through its 
nearly 100 missions. In every step, we share the adventure with the 
public and partner with others to substantially improve science, 
technology, engineering, and mathematics (STEM) literacy and 
understanding nationwide. In 2019, the National Academies will conduct 
an assessment of our Science Activation program, which since its 
establishment in 2016 has competitively selected over 25 awardees, 
enabling more than 200 partnerships that connect NASA science experts 
and content to learners of all ages in communities across the land.
                              aeronautics
    Aviation moves the world, and an efficient and safe air 
transportation system is fundamental to the future of the U.S. economy. 
NASA's cutting-edge aeronautics research is delivering new concepts and 
technologies which will change the face of aviation as we know it, 
boosting U.S. technological and economic leadership in this global 
industry and creating high quality American jobs. The fiscal year 2020 
budget requests $667 million for NASA aeronautics research.
    NASA is enabling quiet commercial supersonic flight through 
construction of the X-59 supersonic flight demonstrator, with a first 
flight planned for fiscal year 2022. NASA will then conduct a first-of-
its kind, multi-year flight research campaign over populated areas to 
gather data about community response to quiet supersonic flights, 
enabling domestic and international regulators to establish a new 
supersonic noise standard. This capability will position the U.S. 
aviation industry to supply global customers with future supersonic 
aircraft products.
    NASA is collaborating with industry to investigate innovative 
technology for subsonic aircraft, including advanced wing design, 
transformative structures, propulsion-airframe integration, and small-
core turbine engines. NASA also is leading research into new 
components, technologies, and powertrain architectures for electric or 
hybrid electric systems that can bring about revolutionary improvements 
in small and large transport aircraft. NASA's work on the X-57 Maxwell 
aircraft--an all-electric, general-aviation-size plane--is already 
delivering important lessons to the community about designing, 
building, and operating an all-electric system. Ground tests this year 
and flight tests next year will provide valuable insights into the 
challenges and opportunities of electric aircraft.
    Building on these activities, NASA has begun a multi-year effort to 
solve the technical challenges associated with a 1-Megawatt (MW) power 
electric aircraft propulsion system--enough energy to power 165 homes. 
NASA will refine concepts and technologies and validate new electric 
systems through ground and flight tests. Realizing a practical 1-MW 
electric aircraft propulsion system has never been accomplished and is 
an area of notable international competition. To support this work, 
NASA has commissioned the world-leading NASA Electric Aircraft Test 
Facility (NEAT) capable of conducting full-scale ground tests of high-
power electric propulsion systems.
    In addition to developing new vehicle technologies, NASA is 
conducting research to make design and manufacturing processes more 
efficient and reduce the time and cost to build aircraft. Next year, 
NASA will complete the Advanced Composites Project, a 6-year focused 
effort in partnership with industry to significantly reduce the time 
needed to develop and certify new composite structures for aerospace 
applications.
    In 2020, NASA will complete demonstrations of technologies to 
integrate operations of larger Unmanned Aircraft Systems (UAS) into the 
existing National Air Space (NAS) as well as manage smaller vehicles 
safely at lower altitudes. Those efforts are providing the foundation 
for another major transformation of the aviation sector being led by 
NASA--creation of an urban air mobility (UAM) system that is safe, 
economical, and environmentally friendly to move people and packages in 
population centers.
    NASA will begin a new Advanced Air Mobility project in fiscal year 
2020 to enable the emergence of UAM. NASA is preparing a series of 
``Grand Challenges'' that will provide a means to assess the maturity 
of key systems for UAM. Through these Grand Challenges, NASA will serve 
as a catalyst for companies to rapidly develop and demonstrate their 
capabilities, while setting the course for needed research and 
investment. Initial community response to NASA's leadership in UAM has 
been strongly supportive.
    NASA research is enabling a transformed airspace system that 
supports efficient operations of all vehicles across these different 
market segments, and gives citizens the confidence that every flight is 
safe and secure. NASA will complete a series of Airspace Technology 
Demonstrations (ATDs) with the Federal Aviation Administration (FAA), 
airlines, and airport operators to demonstrate new capabilities for 
managing efficient airline operations. A final high-fidelity 
demonstration of all integrated system capabilities will support 
delivery of the research and development results the FAA needs to 
advance NextGen capabilities and improvements to meet the FAA's air 
traffic management needs. NASA then will turn its attention to new 
research to address the safety and efficiency challenges of a more 
complex airspace supporting a broad range of new users.
    NASA continues its investment in unique specialized facilities and 
experts who conduct fundamental research to address key challenges in 
hypersonic flight. NASA coordinates closely with partners in the 
Department of Defense (DoD) to leverage DoD investment in ground and 
flight activities to develop and validate advanced physics-based 
computational models as building blocks towards a long-term vision for 
hypersonic flight. At the same time, the DoD benefits from NASA 
hypersonics expertise, analyses, testing capabilities and computational 
models.
    NASA aeronautics research is conducted in partnership with the 
aviation community to transform aviation as we know it, and find 
solutions to aviation system needs that will provide benefits in 
mobility, environmental sustainability, and safety, while ensuring 
continued long-term U.S. aviation technology leadership in this rapidly 
expanding global industry. NASA investments are enabling the early 
stages of the future airspace system that will enable all users--from 
UAS to UAM to traditional airlines--to seamlessly access the airspace 
and safely and efficiently, with great benefit to U.S. industry and 
passengers alike.
                            stem engagement
    NASA's fiscal year 2020 budget proposes the termination of NASA's 
Office of STEM Engagement and its portfolio of domestic assistance 
awards (grants and cooperative agreements), and instead prioritizes 
funding toward an innovative and inspirational program of exploration. 
While the fiscal year 2020 budget no longer supports these programs, a 
common vision, mission and focus areas will drive NASA's future 
endeavors in science, technology, engineering, and mathematics (STEM) 
engagement. Through its mission directorates, NASA will focus on: 
creating unique opportunities for students to contribute to NASA's work 
in exploration and discovery; building a diverse future STEM workforce 
by engaging students in authentic learning experiences with NASA's 
people, content and facilities; and strengthening understanding by 
enabling powerful connections to NASA's mission and work. A small, 
focused functional office at NASA headquarters will be accountable for 
the strategic direction and coordination of the Agency's STEM 
engagement efforts.
    NASA's mission successes will continue to inspire the next 
generation to pursue science, technology, engineering, and mathematics 
studies, join us on our journey of discovery, and become the diverse 
workforce we will need for tomorrow's critical aerospace careers. We 
will use every opportunity to engage learners in our work and to 
encourage educators, students, and the public to continue making their 
own discoveries.
                            mission support
    In this budget, NASA will simultaneously implement multiple large 
development programs in order to return to the surface of the Moon 
sustainably. To be successful, NASA must have the institutional 
capabilities and facilities necessary to efficiently and effectively 
support these programs, which is why this budget proposes important new 
investment in Mission Support. NASA's mission support programs directly 
enable the Agency's portfolio of missions. The fiscal year 2020 request 
prioritizes the capabilities, operations and equipment to safely 
operate and maintain NASA Centers and facilities, along with the 
independent technical authority required to reduce risk to life and 
program objectives for all NASA missions. With installations in 14 
States, NASA collectively manages $39 billion in assets with an 
inventory of over 5,000 buildings and structures. Over the past 60 
years, NASA has leveraged unique test facilities to develop new and 
innovative vehicles and technology for space exploration. Now, 
commercial companies are also leveraging this unique infrastructure. 
Over 80 percent of NASA facilities are beyond their constructed design 
life, and NASA faces the challenge of a deferred maintenance backlog of 
$2.3B. The 2020 budget includes additional funding critical to 
renewing our infrastructure while we continue to divest of unneeded, 
costly facilities.
    In the area of information technology (IT) services, NASA continues 
to improve management and strengthen NASA's cybersecurity capabilities 
in order to safeguard critical systems and data. We have made 
significant progress over the past several years, raising NASA's score 
on the Federal IT Acquisition Reform Act (FITARA) from an ``F'' in 2015 
to a B+ this past year. The 2020 budget provides critical resources to 
continue strengthening cyber security protections and funding to help 
modernize NASA's IT systems in support of future mission objectives. In 
fiscal year 2020, the Agency will continue its efforts to implement and 
develop optimal solutions. Examples include IT consolidation, automated 
segmentation architecture and end user cloud migration. NASA continues 
to transition its IT to an enterprise governance and operating model.
                               conclusion
    NASA's fiscal year 2020 budget request provides for the foundation 
of a national exploration campaign that will create an architecture 
that is open, sustainable and agile. The Space Launch System and Orion, 
critical components of our exploration architecture, will reach 
important milestones in construction and testing this year as the 
program works through significant development challenges, and our new 
lunar command module, the Gateway, will see international and 
commercial partnerships solidified and construction begin. We have 
called on American companies to help design and develop human lunar 
landers and reusable systems for surface activities. In LEO, our 
Commercial Crew program remains strong and will soon be delivering 
American astronauts, on American rockets, from American soil to the ISS 
for the first time since 2011.
    With the fiscal year 2020 request NASA will initiate the first 
round-trip mission to the Red Planet with a Mars sample return mission, 
and many of the technological advancements we achieve moving forward to 
the Moon will provide critical data and capabilities for future robotic 
and crewed Mars missions. We will continue to pursue transformative 
aeronautics technology as we develop the next generation of aircraft 
and make air travel safer and more efficient. We will increase our 
understanding of our home planet and move out on ambitious programs to 
study the far reaches of our solar system and beyond.
    Mr. Chairman, I would be pleased to respond to your questions and 
those of other Members of the subcommittee.

    Senator Moran. Administrator Bridenstine, thank you very 
much for being here. Thanks for the conversation that you and I 
have had in my office, and Senator Shaheen tells me the same 
occurred with her. And I am grateful for that.
    Let me start by talking about what is the circumstance we 
face in which you are going to be someone within the 
administration who is going to be requesting additional 
dollars.
    Mr. Bridenstine. Yes, sir.
    Senator Moran. Tell me, do we know what the amount of those 
additional dollars will be? Our conversation has been about 
where they come from.
    Mr. Bridenstine. Right.
    Senator Moran. But do we know what amount of dollars we are 
looking for?
    Mr. Bridenstine. Sir, we at NASA have put together I think 
a pretty good proposal to OMB and to the National Space 
Council. They are doing their own independent assessments to 
basically come up with a unified administration position.
    I will tell you, sir--and I think this is important. I read 
an article this morning that indicated that it was $8 billion 
additional money per year for the next 5 years. I will tell you 
that is not accurate. It is nowhere close to that amount, but I 
do not want to throw out a number until we have gone through 
the process with OMB and the National Space Council.
    Senator Moran. Well, then tell me about the work of NASA to 
date. What have you found in your analysis, your studies? What 
is needed to bring this goal of an earlier landing on the Moon 
to reality?
    Mr. Bridenstine. Great question, sir. A couple of things. 
Number one, we have done a number of studies and analyzed it in 
every possible way you can imagine. The only way we are going 
to get humans to the surface of the Moon within 5 years is to 
take advantage of the capability that this committee, and in 
fact the United States Senate, has been supporting now for a 
number of years.
    The Space Launch System with the Orion Crew Capsule and the 
European Service Module is the system that will enable us to 
get to the Moon within the next 5 years. The reason is it is 
the only system that is going to be capable of carrying humans.
    Now, in order to get those humans to the Moon, we are going 
to have to not just--what that system does is it gets our 
humans to what we call a Near Rectilinear Halo Orbit around the 
Moon. Once they are there, we need to get those humans to the 
surface of the Moon, namely the South Pole of the Moon.
    In order to achieve that, we are going to have a Gateway. 
We call it the ``Gateway.'' Think of it as a reusable command 
module in orbit around the Moon permanently. Again, the goal 
here is long-term sustainable return to the Moon. In other 
words, we can take humans to the Moon, whatever part of the 
Moon that we want to get to at any time we want to get there. 
That is the goal of a sustainable return to the Moon.
    But we need a reusable command module in orbit around the 
Moon permanently. We call it the ``Gateway.'' What we are doing 
now is we are focused, really, on two elements of that Gateway.
    Think of a small Space Station in orbit around the Moon. 
The two elements we need are power and propulsion. That is one 
element, and the other element is what we call a ``utilization 
module.'' It is a very small habitat, if you will.
    We could take the SLS, the Orion, the European Service 
Module, use that system to get our astronauts to the Gateway, 
and between now and 5 years from now, aggregate at the Gateway 
a landing system. And once we have that landing system in 
place, that gives us the ability to get to the surface of the 
Moon.
    The Gateway has solar electric propulsion. What does that 
mean? That means that the Gateway is maneuverable.
    When we think back to the Apollo era, we landed in the 
equatorial regions of the Moon, so we learned a lot about the 
very specific places we landed on the surface of the Moon.
    When we landed in 1969, from 1969 up until 2008, 2009, we 
thought the Moon was bone-dry. In 2008, 2009, NASA made 
significant discoveries. There are hundreds of millions of tons 
of water ice at the South Pole of the Moon.
    We want to be able to get to more parts of the Moon than 
ever before. The Gateway gives us more access to more parts of 
the Moon with humans, a sustainable presence. We have got to 
get that landing system built, and that is really where the new 
dollars are going to come from, getting the landing system 
built so we can get from the Gateway to the surface of the 
Moon.
    Senator Moran. Administrator, you have addressed this in a 
fashion already in what you just said, but what would be the 
objective to be accomplished of landing a woman on the Moon? 
What is the reason, or what is the desirability of doing it 
earlier? What advantage does that give us, and how does that 
enhance or advance the other objectives of NASA and its goals 
into the future? How does this change the timeline or 
consequences to other things, other goals of NASA?
    Mr. Bridenstine. Yes, sir. By direction of the President, 
the Vice President announced at the last National Space Council 
that the next man and the first woman on the Moon will be 
Americans.
    He also announced that the target would be within 5 years 
having a human on the South Pole of the Moon. The question is, 
Why the South Pole? Well, that is because that is where the 
resources are. That is where the water ice is. That is where we 
need to get in order to utilize the resources of the Moon, 
which is in the President's Space Policy Directive 1.
    There are so many more reasons to go to the Moon than just 
utilization of these resources--that life support capability. 
In fact, we talk about the rocket fuel. The reason we go to the 
Moon is about American leadership. It is about leading a 
coalition of nations for a sustainable return to the Moon for 
science. A lot of people do not realize how much science is 
available left to learn from researching not just the Moon, but 
researching deep space from the Moon.
    When we think about the Moon, it is a repository of great 
scientific data. I do not know how many billions of years, but 
a long time. The challenge with the Earth is it has this very 
active geology, a very active hydrosphere, a very active 
atmosphere. Well, that does not exist on the Moon.
    What does that mean? That means anything that impacted the 
Moon billions of years ago is today right where it was billions 
of years ago, and that includes not just meteors. It also 
includes subatomic particles. We talk about the charged 
particles coming from the Sun. The Moon can give us great 
knowledge about our own solar system.
    There are lots of scientific information. Again, we did not 
know there was water there until 2009, really. We have only 
known this for about 10 years, so what else do we not know 
about the Moon?
    The other thing that is important to note is that from the 
Moon, we can do science deeper into space. We talk about 
potentially having science on the far side of the Moon. Why is 
that important? Because it is quiet, from an electromagnetic 
spectrum perspective. There is no interference from all of the 
radiation that happens here on Earth because of human activity.
    On the far side of the Moon, we can study way back and see, 
no kidding, in some cases, the very first light in the 
universe, which is an important capability that we cannot only 
do from the Moon, but the Moon would enable us to do more of 
that capability.
    But more than anything, sir, we want to go to Mars. In the 
last year, since I have been the NASA Administrator, we have 
discovered that there are complex organic compounds on the 
surface of Mars. What does that mean? The building blocks for 
life exist on Mars.
    We have also discovered that the methane cycles of Mars are 
perfectly commensurate with the seasons of Mars. It does not 
guarantee that there is life, but the probability just went up 
again.
    Those complex organic compounds do not exist on the Moon. 
They are all over Earth, and of course, now we know that they 
are all over Mars.
    We also discovered, just since I have been the NASA 
Administrator, that there is liquid water 12 kilometers under 
the surface of Mars. What do we know about liquid water? 
Anywhere it exists on Earth, there is life. Could there be life 
on Mars? I do not know, but I think the United States of 
America ought to be the country that finds out.
    We go to the Moon because it is a proving ground. How are 
we going to live and work on another world; in other words, 
Mars? The Moon and the Earth, we are a system. We are always 
together. It is a 3-day journey home.
    Apollo 13 taught us that we can have things go bad on the 
way to the Moon, and we can still make it home. If that would 
have happened on the journey to Mars, it would have been over. 
The Moon is a proving ground, to prove technology, reduce risk, 
ultimately take all of that technology and use it for a mission 
to Mars.
    When we are at Mars, Earth and Mars are only on the same 
side of the Sun once every 26 months. When we go to Mars, we 
have to go to stay. We have to learn how to live and work on 
another world.
    I am sorry.
    Senator Moran. Next time, Administrator, I will ask you for 
your top three reasons.
    Mr. Bridenstine. Okay.
    [Laughter.]
    Senator Moran. Senator Shaheen.
    Senator Shaheen. Well, thank you for being here, 
Administrator. I completely agree that part of what NASA is 
doing that is so exciting is for science.
    I had the chance to go last night to the Congressional 
Dialogues dinner, where Doug Brinkley talked about his book 
``American Moonshot,'' John F. Kennedy and the great space 
race, and he talked about, as part of his book, the excitement 
that John Kennedy was able to build when he sold that idea to 
the American people and how excited kids got.
    I remember as a child being in grade school and high school 
and listening to John Glenn orbiting the globe and Alan 
Shepard, the first American in space, and how excited we all 
were.
    And that is why I was so disappointed when I saw your 
budget again proposes eliminating NASA's education programs--
the Space Grant, the Minority University Research and Education 
Program, the program to stimulate competitive research, EPSCoR. 
It is the way that NASA has gotten into schools all over this 
country to get kids excited, and if we are going to have the 
future scientists and researchers we need for the space 
program, we have got to start when kids are in school and 
getting them excited about this.
    So I do not understand why you are proposing again to 
eliminate these programs.
    Mr. Bridenstine. NASA does a lot of outreach to young folks 
all over the country, and we touch every State in the Union, 
and, of course, that is important. We want exactly as you have 
identified, what Douglas Brinkley talks about, that 
inspiration, that is what NASA does. We have a history of that.
    By the way, Douglas Brinkley is a professor at my alma 
mater, Rice University. Go Owls. I had to throw that in there, 
but to your point, we have a big ambition and a big heart for 
reaching those young folks. The way we do that most effectively 
is through the various mission directorates.
    The Space Technology Mission Directorate, for example, has 
a lot of research done at universities that young people get 
engaged in at the university level.
    The Science Mission Directorate, for example, we are very 
involved in FIRST Robotics, which has demonstrated an amazing 
capability to engage young people.
    In fact, I was out at the Mars InSight landing back in 
November of last year. Some of the technologists, the engineers 
that were building those robots that are now on Mars, they got 
started in the FIRST Robotics program.
    Senator Shaheen. And if we are being parochial, that 
started in New Hampshire.
    Mr. Bridenstine. Yes, ma'am.
    [Laughter.]
    Mr. Bridenstine. That is great to know. I would love to 
maybe make a trip out there and learn more.
    There are ways that we are engaging young folks.
    Senator Shaheen. And I appreciate that. However, last year 
this committee on a bipartisan basis did not agree with cutting 
those programs, and hopefully, they will not agree again this 
year. I think that is not the right direction if we want to 
continue to engage people across this country in the importance 
of NASA's work.
    As we discussed yesterday when you came to see me, one of 
the concerns that I have is about water contamination that has 
shown up at some of NASA's sites.
    There is a report recently from the New York Times that 
states that NASA along with the Department of Defense lobbied 
the administration to adopt a weaker standard for groundwater 
pollution that is caused by PFAS chemicals. Those chemicals, as 
we discussed, have been found in firefighting foam, and they 
exist in groundwater across this country. Can you talk about 
whether in fact NASA lobbied the EPA to put in place weaker 
standards for PFAS pollution?
    Mr. Bridenstine. Ma'am, yesterday after we talked, I went 
back to NASA. We opened up these questions to all the different 
people that were involved, and the answer is we reject the 
notion that the New York Times put in there that NASA was 
involved in that. We were not.
    We have never advocated for weakening the standards for the 
clean water because of the PFAS pollution.
    It is right now on our agenda to go through all of the 
different NASA centers and find out which of them have used 
PFAS and how it has affected, not just the centers where it was 
utilized, but the communities around it. NASA is going through 
that right now, and we support the EPA as they go about doing 
the scientific analysis to determine what levels are safe and 
unsafe, and as far as anybody at NASA can tell, we have been 
fully supportive of the EPA scientific analysis of this.
    Senator Shaheen. So you did not lobby to try and get the 
EPA to put in place weaker standards?
    Mr. Bridenstine. That is correct.
    Senator Shaheen. Good. Well, thank you. I am pleased to 
hear that.
    I know that NASA has acted very responsibly in terms of the 
wells that have been polluted at Wallops Flight Facility. So I 
hope you will continue to act in that responsible way.
    Mr. Bridenstine. Yes, ma'am.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Moran. Senator Shelby, the Chairman of the full 
committee, has joined us. Thank you.
    Senator Shelby. Thank you. I believe that we must have with 
NASA a unified and clear direction--from NASA, from the 
administration, and the Congress--to achieve the goal of using 
an American rocket to put American astronauts on the Moon.
    Ambiguity on options and the program, I think only detracts 
from a lot of these efforts, and some of the recent comments 
made by you and others have arguably created confusion. It has 
with me.
    Could you take a minute or two and elaborate on some of 
what we discussed in our meeting yesterday about SLS and how it 
is the only launch vehicle capable of launching crews to land 
on the Moon? And considering risk, cost, time, and other 
factors, your view as Administrator about SLS being the option 
to ensure a successful crewed lunar landing mission in 2024? Is 
that too much?
    Mr. Bridenstine. No, sir. We are right in line on this.
    We have looked at options, and we have determined that the 
only option where we are going to be able to put humans on the 
surface of the Moon in 2024, which is my mandate, is to utilize 
the SLS, which is, of course, will be by far the most powerful 
rocket in the American inventory. In fact, in the world, 
nothing comes close, and not just the SLS, but utilizing----
    Senator Shelby. But it could be used for other things too, 
could it not?
    Mr. Bridenstine. Yes, sir, absolutely.
    In fact, the SLS, when we talk about launching to Europa, 
for example, if we use rockets that are currently available off 
the shelf, it would be a 7-year mission, Europa being a moon of 
Jupiter, a water world, if you will, which we believe has a 
probability of having life. It is 7 years by conventional 
rockets that currently exist. With SLS, we can cut that down to 
less than 3\1/2\ years. So it is a very capable asset for the 
United States of America, and it is really the only rocket that 
we are going to have capable of taking our humans to the Moon 
in 2024.
    Senator Shelby. I know the time has slipped on it some. It 
slips on a lot of things, but what is important is to build 
that rocket and build it right, is it not?
    Mr. Bridenstine. Yes, sir.
    Senator Shelby. And I know Boeing--we have spent a lot of 
money on that, and I think it needs to be finished rather than 
go to something else, out of expediency.
    Mr. Bridenstine. We are close. We are getting very close.
    Senator Shelby. I appreciate your statement on that.
    Both Boeing and SpaceX have had issues while developing 
their crew capsules. You are familiar with this. The most 
recent SpaceX anomaly caused the complete loss of the crew 
capsule.
    During past anomalies that have involved commercial 
vehicles, NASA has conducted their own independent reviews of 
the incidents. This recent incident involved testing a vehicle 
that is intended to carry crew to space, and it seems more than 
appropriate for NASA, of all agencies, to conduct its own 
independent investigation to ensure, of course, crew safety.
    My question is this. As has been past practice, when 
vehicles are lost, will NASA conduct its own independent 
investigation into the recent Crew Dragon anomaly and make a 
public summary of these independent results available?
    Mr. Bridenstine. Right now, NASA is doing a review. We are 
doing it side by side with our partner, SpaceX, in this review.
    Senator Shelby. Now, what does ``side by side'' mean? Does 
that mean you are doing it jointly, or they are doing it and 
you are just tagging along?
    Mr. Bridenstine. It is jointly. It means that our 
scientists and our engineers are side by side.
    Senator Shelby. Is that unusual to do it jointly?
    Mr. Bridenstine. Not in this case.
    Senator Shelby. I thought they did--NASA independently. Can 
you be independent and reach independent conclusions if you are 
doing something jointly with somebody? Will you be----
    Mr. Bridenstine. I would say that the engineers that we 
have at NASA are extremely sensitive to what we are trying to 
achieve, and they have an obligation to make sure that we are 
putting forth only the most accurate and precise data for the 
protection of our astronauts. I have every confidence that as 
SpaceX conducts the investigation with our engineers, that we 
will get very accurate information as to what the anomaly was.
    Senator Shelby. Is this a departure from the norm a little 
bit?
    Mr. Bridenstine. Not that I know of.
    Senator Shelby. Well it is not strictly an independent 
investigation if you are doing it with the people who built and 
launched the rockets.
    Mr. Bridenstine. It is not strictly an independent 
investigation.
    Senator Shelby. Well, that is not the norm, I do not agree, 
but we will check that out.
    Regardless of the impact schedule, do you believe that NASA 
and SpaceX should be in complete agreement on the root cause of 
the anomaly, and that any necessary corrective actions will be 
appropriately tested again prior to flying NASA astronauts 
being on board?
    Mr. Bridenstine. Absolutely.
    Senator Shelby. Okay. Well, I appreciate that, and I 
appreciate your testimony today.
    Mr. Bridenstine. Yes, sir.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Moran. Chairman, thank you.
    Senator from West Virginia, Senator Manchin.
    Senator Manchin. Thank you, Chairman.
    Last year, I was honored to meet with Katherine Johnson and 
her family during a dedication ceremony for the statue of Ms. 
Johnson at West Virginia State University. You know, she turns 
100 years old, and she is unbelievable.
    It is my hope that the students who pass by that statue 
every day are reminded of Katherine's legacy and inspired to 
keep their passion for knowledge alive, and I cannot be more 
proud of NASA's Independent Verification and Validation 
Facility in Fairmont, my hometown.
    Through the contributions of hidden figures like Katherine 
Johnson and Dorothy Vaughan, as well as the Rocket Boys--Homer 
Hickam from Coalwood--West Virginia has contributed 
immeasurably to our Nation's advancements in space and 
continues to contribute to the work completed at IV&V Facility 
in Fairmont.
    The Green Bank Observatory, I think we have spoken about 
that, and I appreciate it.
    Mr. Bridenstine. Yes.
    Senator Manchin. Pocahontas County and the West Virginia 
Robotics Technology Center.
    So I look forward to seeing you, hopefully, at the 
dedication at the IV&V Facility this year, but given the 
integral role West Virginia plays in safety and security, 
robotics, refueling, identifying objects both near our planet 
and across the galaxy, I would love to have you see the 
incredible work being done firsthand.
    So I would say I hope you are able to come. Will you be 
able to come to our dedication?
    Mr. Bridenstine. We have the invitation, sir. We are 
working through it, but I would love to be there. I cannot 100 
percent commit.
    Senator Manchin. Well, we think you will be. We are just 
hoping for you to be there, okay?
    Mr. Bridenstine. Okay.
    Senator Manchin. So I want to make that formal invitation 
for you to be there and be able to see it, and I know Senator 
Capito and I both would love to have you in our State.
    Mr. Bridenstine. Thank you, Senator.
    Senator Manchin. The other thing I want to talk about is 
the Near-Earth Orbit Objects at Green Bank, and I think you 
know--I think you have been brought up to speed on the Green 
Bank Telescope?
    Mr. Bridenstine. Yes.
    Senator Manchin. In a nutshell, what we are having a 
problem with is the funding mechanism, and I think it can be a 
tremendous asset for the security of our Nation and the safety 
of our globe.
    I do not know if you can provide me with the next 5 years 
of the NASA support at Green Bank, as directed by fiscal year 
2019 appropriations bill?
    Mr. Bridenstine. We do utilize Green Bank. It is, of 
course, a National Science Foundation asset. We used it back in 
November when we landed InSight on Mars. We were able to get 
data back very quickly because some of that data was flowing 
through the Green Bank Observatory, so----
    Senator Manchin. Right. I think also, if I might interrupt, 
this year in January, the Green Bank Telescope helped give the 
astronomers the most detailed images over a potentially 
hazardous asteroid passing close to Earth.
    Mr. Bridenstine. Yes, sir. It has great value, and we use 
it. We are a customer of it.
    Senator Manchin. We need it involved in your funding.
    Mr. Bridenstine. Okay.
    Senator Manchin. They are having a hard time saying afloat, 
and you know that. With the National Science Foundation, if 
they do not partner up--and it is a natural asset for our 
country. It is a wonderful opportunity. It is in a quiet zone. 
It does a great job.
    So I guess I would just ask if you are looking at that, 
your priority for looking at that in your budget.
    Mr. Bridenstine. We will take a look at it, sir.
    Senator Manchin. Okay. And then giving your state of 
priority for mapping Near-Earth Orbit objects, can you tell how 
Green Bank plays into that?
    Mr. Bridenstine. Yes, sir.
    Senator Manchin. Because I do not think it is tied in.
    Mr. Bridenstine. This is a really big issue not just for 
our Country but in fact for the world.
    Senator Manchin. The world, right.
    Mr. Bridenstine. In 2013, a lot of people maybe in this 
room, remember an asteroid that entered the Earth's atmosphere 
over Russia, an asteroid that ultimately blew up over a 
province called Chelyabinsk in Russia, and when it exploded, it 
had the amount of energy of 30 times the atomic bomb at 
Hiroshima. Of course, that kind of event is going to happen on 
average once every 60 years.
    That event resulted in 1,500 people going to the hospital. 
It resulted in 7,200 buildings being damaged significantly. It 
resulted in damage--of those 7,200 buildings, they were in six 
different towns around the area. It was a huge explosion.
    We have to detect, track, and characterize those near-Earth 
objects that are 140 meters or bigger. That explosion was an 
asteroid that was 20 meters wide.
    We are talking about characterizing asteroids at 140 meters 
or bigger. So far, we believe there are 25,000 of those near-
Earth objects that could pose a threat in the future. Nothing 
right now is posing a threat, but in the future.
    The question then becomes how do we characterize them? We 
need ground-based surveillance, which we have. I do not know 
how Green Bank could play into that, but it could be a piece of 
the solution. We also need space-based telescopes that can 
detect, track, and characterize----
    Senator Manchin. I think tying Green Bank into your network 
now would be a tremendous asset, and I think that would be 
part. And we could do that for probably low budget, having this 
asset already at our disposal.
    Mr. Bridenstine. Sir, we will look into that.
    Senator Manchin. So I formally invite you again as a public 
invitation to West Virginia to come and see the dedication for 
Katherine Johnson, IV&V Facility. I think it will be something 
special.
    Mr. Bridenstine. Yes, sir. We will do that.
    Senator Manchin. Okay. Thank you, sir.
    Mr. Bridenstine. You bet.
    Senator Moran. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. I thank the 
Chairman and the Ranking Member for their leadership.
    Welcome, Mr. Administrator. It is great to see you.
    Mr. Bridenstine. Good to see you.
    Senator Van Hollen. Look, I know that you are not 
responsible for the final signoff from the budget at OMB. So I 
just want to get your responses to a couple questions on the 
merits of some of the programs that are ongoing at NASA because 
we had a conversation last year at the hearing, and I just want 
to make sure you are still in the same place this year with 
respect to the merits of those programs as you were last year, 
because obviously this committee will make its own decisions 
with respect to our budget priorities.
    So last year, in our exchange, you said--I am quoting--``It 
is absolutely important to me that NASA follow the guidance of 
the Decadal Survey, and a brand-new Decadal Survey came out in 
January of this year.'' This was last year. You still believe 
it is important that we follow their recommendations, the 
Decadal Survey, right?
    Mr. Bridenstine. Yes, sir, I do.
    Senator Van Hollen. And you pointed out then--and it is 
still the case now--that the PACE program and the CLARREO 
programs are priorities under that survey; is that not right?
    Mr. Bridenstine. That is correct.
    Senator Van Hollen. All right. And last year, we also 
talked about the Restore-L program, and this is what you said 
at that hearing, quote, ``This is important. Robotic servicing 
for our Country is a critical capability that we need to have 
for a whole host of strategic reasons.'' You would still agree 
with that, right?
    Mr. Bridenstine. 100 percent.
    Senator Van Hollen. Absolutely.
    And then there is another program that was in fact ranked 
number one by the 2010 Decadal Survey with respect to astronomy 
and astrophysics. That is the WFIRST program. It had the 
highest scientific priority, space astrophysics mission rating, 
and you agree that that is also an important priority for our 
country, right?
    Mr. Bridenstine. Yes, sir.
    Senator Van Hollen. All right. So I just wanted to get your 
views on the merits of those programs, and I appreciate your 
testimony. And I look forward to working with the committee on 
those priorities.
    I understand Senator Shaheen brought up the issue of PFAS. 
I appreciate that.
    In Maryland, we are very proud of two things. One, we have 
NASA Goddard. They do lots of good work in many areas, 
including Earth sciences, and in nearby Virginia, we have the 
Wallops Flight Facility. I know you visited that as well.
    Mr. Bridenstine. Yes, sir.
    Senator Van Hollen. And a lot of Marylanders work there and 
are proud of the work they do there.
    And there has been, though, a PFAS issue at Wallops, and we 
look forward to following up with you to make sure that we 
address that.
    The other issue I wanted to raise with you had to do with 
one of the contractors down at Wallops. It turned out that for 
a period of time, they were discharging pollutants into the 
Chesapeake Bay, and it went undiscovered for a long period of 
time. Are you familiar with that circumstance?
    Mr. Bridenstine. Different than PFAS?
    Senator Van Hollen. Yes.
    Mr. Bridenstine. Then I am not familiar.
    Senator Van Hollen. This has to do with nutrient overflow 
into the Chesapeake Bay----
    Mr. Bridenstine. Okay.
    Senator Van Hollen [continuing]. From the activities at 
Wallops. It was one of the private contractors.
    Mr. Bridenstine. Okay.
    Senator Van Hollen. And it was discovered. The contractor 
discovered it, and I think the person who had sort of knowingly 
allowed this to happen was let go. But we would like to follow 
up with you on exactly what happened to make sure that that 
kind of incident does not happen again.
    Mr. Bridenstine. I would be happy to do that.
    Senator Van Hollen. And really, the last question I have, I 
understand from your earlier testimony that and I think I read 
that you and the administration decided to move the target date 
for the next Moon landing up to 2024.
    Mr. Bridenstine. Yes, sir.
    Senator Van Hollen. I would just say that our policy 
decisions here need to be driven by the science----
    Mr. Bridenstine. Yes.
    Senator Van Hollen [continuing]. Not by political 
calendars, and I understand you are going to submit a revised 
budget.
    But I would very much hope, Mr. Chairman and Ranking 
Member, that we do not allow a political priority that is not a 
scientific priority to drive away funding for what we all have 
sort of agreed are important priorities based on the science in 
this committee.
    So I look forward to working with you. There are lots of 
things we want to do. We would like to do them all right now.
    I am going to follow up in writing on the Webb Telescope 
situation.
    Mr. Bridenstine. Okay.
    Senator Van Hollen. We had a briefing 6 months ago or 
something.
    Senator Moran. True.
    Senator Van Hollen. But I would like to get an update.
    But thank you for your leadership. I look forward to 
continuing to work with you.
    Mr. Bridenstine. Thank you.
    Senator Van Hollen. Thank you.
    Senator Moran. Senator Van Hollen, thank you, and we look 
forward to a budget amendment, something from the 
administration outlining additional resources necessary and 
where those dollars might come from, and we will take that 
request seriously. But we will try to analyze it, just as we 
would analyze any other budget request.
    Administrator, the vote has been called. I am interested in 
striking an agreement with you, a deal.
    Mr. Bridenstine. Okay.
    Senator Moran. A Kansan and an Oklahoman. We will conclude 
this hearing, but I would like your agreement that we, Senator 
Shaheen and I, can invite you back in the near future to sit 
down around the table and have a conversation. We will invite 
our colleagues from the subcommittee to join us, and if that 
seems satisfactory to you, we will conclude this hearing today 
rather than recessing it and coming back.
    Mr. Bridenstine. I would be happy to do that.
    If it is okay, I would like to reference what Senator Van 
Hollen said for just 1 second regarding the timing because this 
is something that is important to me. It was important to me. 
The timing was important, even when I was in the House of 
Representatives.
    We think about the effort to go to the Moon. This has been 
tried before many times. We should be on the Moon right now, 
but we are not.
    The reason it has failed in the past, there are really two 
risks. One is the technical risk, which NASA is very good at 
retiring. The other challenge is the longer the program goes, 
the more difficult it becomes to achieve the end state because 
of the political risk. Budgets change. Priorities change. 
Administrations change.
    And so what we are trying to do here--if we go back to the 
1990s, we had the Space Exploration Initiative, and it failed 
because it took too long and the budgets never materialized.
    Then we had in the 2000s, the Vision for Space Exploration, 
and then the same reason, the budgets changed, the priorities 
changed.
    So the faster we go, the more likely it is that we can 
realize the end state, and I think that is why when President 
Kennedy, to what Senator Shaheen was talking about, when 
President Kennedy announced that we were going to the Moon, he 
put a very specific deadline on it: by the end of the decade. 
And I think that is an important thing for us to do.
    Senator Van Hollen. If I could just say, Mr. Chairman, I 
guess the question for us is what are the opportunity costs of 
changing the schedule?
    Mr. Bridenstine. Yes, sir.
    Senator Van Hollen. What impact would that have on other 
priorities?
    Mr. Bridenstine. I understand.
    Senator Van Hollen. Thank you.
    Senator Moran. Senator Shaheen has a follow-up question.
    Mr. Bridenstine. Okay.
    Senator Moran. And then we will move toward concluding the 
hearing.
    Mr. Bridenstine. Okay.
    Senator Shaheen. Well, thank you, Mr. Chairman.
    I wanted to follow up on heliophysics and space weather. As 
I know you are aware, New Hampshire is very much a space State. 
The University of New Hampshire does a lot of work in a number 
of areas, but one of those is heliophysics. And changing space 
weather conditions pose serious risks for our satellite 
infrastructure, for our power grid, for national security 
assets in so many ways.
    And according to a 2012 report released by Lloyd's of 
London, a severe space weather event could cripple our economy 
and cost up to $2.6 trillion.
    So can you talk about the roles that NOAA and NASA play in 
understanding and predicting space weather and the assurances 
that you can give us, if you can, about our space weather 
infrastructure?
    Mr. Bridenstine. Yes. So NASA plays a critical role here 
when it comes to technology development and science, 
exploration. We currently have in orbit around the Sun the 
Parker Solar Probe, which is actually going to be flying 
through the solar corona, the atmosphere of the Sun, an amazing 
technological accomplishment. It has already done a number of 
passes that have been very close and resulted in amazing 
science.
    What we are trying to do is get very good at predicting 
what causes these coronal mass ejections, what causes these 
solar flares. These could be damaging to the Earth because what 
happens is it is very--we go back to what we call the 
Carrington Event in the 1800s. We had a coronal mass ejection 
that impacted the Earth. In the 1800s, it was impactful, but 
today it would be far more impactful because we use the 
electromagnetic spectrum. We have power grids. All of that 
would be wiped out. It would potentially be existential to our 
country.
    So we need to be good at predicting, and then 
operationally, some of the systems that we have built, NOAA 
uses ultimately for operational activities so they can provide 
warning and those kinds of things.
    This is a mission that is important to NASA. It is a 
mission that is very important to our international partners. 
They are making investments in it, the same as we are making 
investments in it, and we have further collaborations where we 
can all have an impact.
    We cannot afford, Senator, as you are aware, a Carrington-
level event in today's era because we have so much dependency 
on the power grid and so much dependency on the electromagnetic 
spectrum.
    Senator Shaheen. So how important is the role of our 
universities in heliophysics and other science missions?
    Mr. Bridenstine. Very important. We make our data available 
to the world for free, and the universities do amazing 
research. They take the data. They utilize it. They help us 
understand what is happening, and they in fact, in many cases, 
build the models by which we can make predictions in the 
future.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Moran. Senator Shaheen, thank you very much.
    Administrator, again, we will work at getting a date in the 
near future to have a conversation around a table here at the 
Capitol. It is still important. I think there are a number of 
questions that we would like to discuss with you as we complete 
our work on this appropriations bill.
    Mr. Bridenstine. Yes.
    Senator Moran. Senator Shaheen and I both want to make 
certain that the CJS appropriations bill is one, I hope of all 
12 that is passed early on in the appropriations process and no 
need for a CR to a later date.
    So we will be back in touch with you and your crew.
    Mr. Bridenstine. Thank you.
    Senator Moran. Thank you very much for your testimony.
    Mr. Bridenstine. Thank you, Chairman.

                          SUBCOMMITTEE RECESS

    Senator Moran. No further questions can be had this 
afternoon. So, therefore, Senators may submit additional 
questions for the subcommittee's official hearing record. We 
request that NASA respond to those questions within 30 days.
    And the subcommittee stands in recess.
    [Whereupon, at 3:11 p.m., Wednesday, May 1, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
